OIG Investigative Reports, New York, NY., March 09, 2011 -  Former Iona College Vice President of Finance Pleads Guilty in Manhattan Federal Count to Embezzlement
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney
Southern District of New York
FOR IMMEDIATE RELEASE
MARCH 09, 2011
CONTACT:    U.S. ATTORNEYS OFFICE
ELLEN DAVIS, CARLY SULLIVAN,
JERIKA RICHARDSON, EDELI RIVERA
PUBLIC INFORMATION OFFICE
(212) 637-2600
FORMER IONA COLLEGE VICE PRESIDENT OF FINANCE PLEADS GUILTY IN MANHATTAN FEDERAL COURT TO EMBEZZLEMENT
PREET BHARARA, the United States Attorney for the
Southern District of New York, announced that MARIE E. THORNTON,
the former Vice President of Finance for Iona College, pled
guilty today for embezzling more than $850,000 from the college.
THORNTON pled guilty before U.S. Magistrate Judge KEVIN N. FOX
Manhattan U.S. Attorney PREET BHARARA said: "This is a
classic case of the fox guarding the hen house. Marie Thornton
was entrusted with the financial well-being of Iona College, but
instead, she abused her access to cook the books and line her own
pockets."
As alleged in the Information filed in Manhattan
federal court today:
From 1999 up to May 2009, THORNTON caused more than
$850,000 belonging to Iona College to be diverted to her personal
use by, among other things, submitting false vendor invoices for
reimbursement to Iona College and submitting credit card bills
for personal expenses to be paid by Iona College.
THORNTON, 63, pled guilty to embezzlement from an
organization that receives federal funds, which carries a maximum
sentence of ten years in prison and a maximum fine of $250,000,
or twice the gross gain or loss from the offense. The Information
also seeks forfeiture of all proceeds of the offense. THORNTON
is scheduled to be sentenced before the Honorable KIMBA M. WOOD
on May 13, 2011.
Mr. BHARARA praised the efforts and the assistance of
the U.S. Department of Education, Office of the Inspector
General.
The case is being handled by the Office’s Public
Corruption Unit. Assistant U.S. Attorney CARRIE H. COHEN is in
charge of the prosecution.
11-069
###
Top
Printable view
Last Modified: 06/03/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov